1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Zachary C. Schauf
Tel +1 202 637 6379
ZSchauf@jenner.com

September 30, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Oklahoma v. Janson, No. 21-325
Dear Mr. Harris:
I represent Respondent in the case referenced above. Petitioner Oklahoma filed petition for a writ
of certiorari on August 27, 2021, and this matter was placed on the docket on September 1, 2021.
Respondents’ response to the petition is due on October 1, 2021. Pursuant to Supreme Court Rule
30.4, I write to request a thirty (30) day extension of time to file a response to the petition in this
case.
In light of the press of other business, counsel requires additional time to fully respond to the
arguments presented in the petition. Moreover, Oklahoma has filed a new petition that bears on
the petition in Respondent’s case. In particular, Oklahoma’s petition in Respondent’s case relies
on arguments Oklahoma made in Oklahoma v. Bosse, No. 21-186, which has now been voluntarily
dismissed. On September 17, 2021, Oklahoma filed a new petition in Oklahoma v. Castro-Huerta,
No. 21-429, which modifies in certain respects Oklahoma’s arguments for why certiorari should
be granted in that case and in Respondent’s case. Hence, counsel for Respondent requires time to
review the arguments made in Castro-Huerta and to respond as appropriate.
For these reasons, I respectfully request a thirty (30) day extension of time, until November 1,
2021, to file a response to the petition.
Sincerely,

/s/ Zachary C. Schauf
Zachary C. Schauf

CHICAGO

LONDON

LOS ANGELES

NEW YORK

S AN FRANCISCO

W ASHINGTON, DC

WWW.JENNER.COM

